             July 30, 2004

             MEMORANDUM
             FOR:            Mission Director, USAID/Kosovo, S. Ken Yamashita

             FROM:           Regional Inspector General/Budapest, Nancy J. Lawton /s/

             SUBJECT:        Report on the Risk Assessment of USAID/Kosovo (Report No. B-167-
                             04-003-S)


             This memorandum transmits our final report on the subject risk assessment. In
             finalizing the report, we considered your comments on our draft report and have
             included your response as Appendix II.

             This is not an audit report and does not contain any recommendations for your action.

             I appreciate the cooperation and courtesy extended to my staff during the risk
             assessment.



Background   USAID/Kosovo was established in July 1999 after peace was restored to the area by a
             NATO-led coalition and Kosovo came under United Nations authority. The highest
             priorities at the end of the conflict were to provide emergency assistance and establish a
             secure environment. Today, USAID/Kosovo’s mission is to help transform Kosovo into
             a self-governing economically sustainable entity in which all citizens have equal rights.

             Development work in Kosovo occurs in a very complicated political environment,
             making the work at times more difficult and risky. The United Nations Mission in
             Kosovo (UNMIK) is the ultimate authority, although many government functions have
             been transferred to Kosovo’s nascent government, the Provisional Institutions of Self -
             Government (PISG). To provide assistance, USAID interacts with both institutions as
             well as with other donors.

             USAID/Kosovo includes a Controller’s Office, an Executive Office (EXO), a
             Program Office, and two Program-related Offices:

                •   the Economic Growth Office (EGO) focuses on strengthening the basic
                    institutions needed for a vibrant economy, promotes the integration of
        Kosovo’s economy into the region, and encourages investment to create a
        dynamic private sector, and

    •   the Democracy and Governance Office (D&G) supports the development of an
        independent judiciary, a citizenry informed by independent media, vibrant
        civil society organizations and political parties, and government institutions
        that respond to citizens’ needs.

The following table shows program obligations, in millions, during fiscal years 2001
through 2003, along with the current strategic objectives (SOs) and the proposed
budget for fiscal year (FY) 2004.

USAID/Kosovo Programs                 FY 2001   FY 2002     FY 2003       FY 2004
                                                                          (budgeted)
Economic Growth:
Strategic Objectives - 1.2:
Improved Policy and Institutional       $26.1     $24.3        $17.1         $11.8
Climate for Productive
Investment and 1.3: Accelerated
Growth of the Private Sector
Democracy and Governance:
Strategic Objectives - 2.1: A Civil
Society and Government That
Are More Effective Partners In           5.7        8.8          9.0          13.4
Achieving Good Governance and
2.2: A More Capable,
Transparent and Responsive
Government Acting According
To The Rule Of Law
Program Office:                         13.1        2.6          2.4           6.1
Strategic Objectives – 4.1:
Special Initiatives and 4.2: Cross-
cutting Programs
Total Program Funds                     $44.9     $35.7        $28.5         $31.3


The Government Accountability Office, formerly the General Accounting Office
(GAO), has stated in the Standards for Internal Control in the Federal Government
that internal controls are an integral component of an organization’s management.
They should provide reasonable assurance that the following objectives are being met:
effectiveness and efficiency of operations, reliability of financial reporting, and
compliance with applicable laws and regulations. GAO has stated that internal
control should provide for an assessment of the risks the agency faces from both
external and internal sources. This survey focused on the risk assessment component
of internal controls.

The purpose of this risk assessment is to identify significant areas of vulnerability
within USAID/Kosovo’s administrative and program operations and to assist
RIG/Budapest in planning future audits.

Appendix I contains a discussion of the scope and methodology for this assessment.


                                                                                     2
Discussion   One overriding risk factor regarding the effective management of USAID’s assistance
             activities in Kosovo has been the Agency’s difficulty in recruiting and retaining U.S.
             Direct Hire (USDH) and U.S. Personal Service Contractor (USPSC) personnel.
             While the Mission’s FY 2001-2003 strategy called for ten USDH employees,
             USAID’s Europe and Eurasia Bureau advised USAID/Kosovo that Agency personnel
             shortages would preclude the Mission from reaching that staffing level. Furthermore,
             USAID/Kosovo has suffered from extremely high turnover and a reliance on
             temporary or intermittent U.S. managers in many key functions.

             Many factors also have had a negative impact on USAID’s ability to provide staff to
             the Mission in a timely manner. Until recently, because of the dangerous security
             situation in Kosovo, employees had not been able to bring adult dependent family
             members to post, making the Mission unattractive for many employees. In addition,
             several USAID/Kosovo personnel were selected for assignments to support USAID
             operations in Afghanistan and Iraq. As the Mission Director recently reported, USDH
             numbers are only slowly being rebuilt after being “nearly completely decimated” in
             2003; the Mission plans to have six USDH positions in FY 2004. During one three-
             month period in FY 2003, there were no USDH personnel at the Mission.
             Consequently, these disruptions resulted in very high costs, both in dollar terms and in
             the loss of continuity in program implementation.

             In 2000, the Mission received a waiver for the strategic requirement for a fully
             articulated results framework (such as cause-and-effect linkages between Intermediate
             Results and Strategic Objectives) and related performance measurement system
             requirements, including a Performance Management Plan (PMP). The PMP is a tool
             used by an operating unit to plan and manage the process of assessing and reporting its
             progress towards achieving strategic objectives. The absence of formal activities to
             monitor and validate performance measures and indicators increases the risk that
             programs will not achieve their objectives. This risk will be mitigated with the
             implementation of a formal PMP, currently under development, to support the Mission’s
             revised strategy.

             In judging the risk exposure for the offices in USAID/Kosovo, we also considered,
             where appropriate:

                •   the amount of funding the individual programs received relative to the overall
                    Mission budget,

                •   the level of involvement and support provided by the Government of Kosovo,

                •   the experience of key staff members,

                •   the adequacy of written procedures and the level of compliance with
                    procedures throughout the Mission,

                •   the adequacy and use of performance standards and internal audits,




                                                                                                   3
   •   evidence of consistent implementation of activities that clearly support
       program objectives,

   •   the adequacy of controls over its data systems, equipment and vehicles, and

   •   correction of Mission-identified weaknesses from the Federal Managers’
       Financial Integrity Act (FMFIA) report for FY 2003.

Our assessment for the two program-specific offices and the controller and
executive offices is described in the following pages. We did not assess the
program office.




                                                                                     4
Function Description                                          Risk Exposure
Economic Growth Office (EGO): This office is
responsible for SO 1.2: Improved Policy and Institutional          Moderate
Climate for Productive Investment and SO 1.3:
Accelerated Growth of the Private Sector
Risk Assessment Factors
• This area received $17.1 million or 60 percent of the Mission’s FY 2003
   funding.

•   This office interacts with UNMIK, the PISG, and the European Union, and other
    donors to provide assistance. Conflicts or differences in opinions among these
    organizations may sometimes impede the Mission’s progress to achieve timely
    results

•   Many reforms depend on the approval of UNMIK, which is beyond the
    Mission’s manageable control. In addition, as various powers are transferred to
    the PISG, USAID will need to coordinate closely with Kosovar counterparts to
    ensure that needed reforms are fully institutionalized in order to support an
    effective climate for investment.

•   The inability to attract key staff persons may negatively impact project
    monitoring, especially by creating gaps in the supervision of cognizant technical
    officers (CTOs).

•   The lack of a sub-grantee’s management oversight resulted in the termination of
    an agreement under the assistance program because the implementing partners
    did not meet program or administrative objectives.

•   The staff was knowledgeable and aware of their assigned responsibilities. Their
    level of competence and institutional knowledge has provided the Mission with
    the needed assurance that work requirements will be met without close
    supervision. The staff members in key positions had the necessary knowledge
    and experience relating to their job responsibilities.

•   Staff clearly understood USAID policies and procedures, and the area covering
    CTO responsibilities; however, contract oversight responsibilities regarding
    project site visits was not always documented in writing. As a result, the
    recipient’s progress in achieving the objectives stated under the terms and
    conditions of the award could not be reviewed or verified via documentation of
    visits.

•   The privatization process has been halted since October 2003. The Kosovo
    Trust Agency (KTA), UNMIK, and others have been working to resolve
    procedural, corruption, and immunity issues related to the privatization process.
    While a mutually-acceptable compromise appears to be on the horizon, there is
    no guarantee that the process will move forward because of the highly
    politicized nature of privatization, especially in Kosovo.

•   The Mission’s FMFIA report for FY 2003 did not disclose any material
    weaknesses.

                                                                                        5
Function Description                                          Risk Exposure
Democracy and Governance Office (D&G): This
office is responsible for SO 2.1: A Civil Society and
Government That Are More Effective Partners In                       Moderate
Achieving Good Governance and SO 2.2: A More
Capable, Transparent and Responsive Government
Acting According To The Rule Of Law
 Risk Assessment Factors
• The Mission spent $9 million on D&G programs during fiscal year 2003,
    representing 31 percent of the USAID/Kosovo’s program budget for that fiscal
    year.

•   The D&G budget is nearly 50 percent larger in FY 2004 because the Mission
    eliminated the Community Infrastructure SO and gave the D&G new staff and
    program responsibilities. In addition, the D&G personnel formed new SO
    teams and new CTO responsibilities were assigned to the staff. Agency
    reorganizations and change of strategic plans, goals and objectives and budget
    can have dramatic and pervasive organizational effects and lead to increased
    risk that organizational objectives will not be achieved. However, negative
    effects of reorganization may be mitigated through close collaboration with
    staff during the reorganization and strategy design and implementation
    processes.

•   The lack of consensus regarding Kosovo’s final political status, competing
    municipal structures, unresolved ethnic tension, and the need to coordinate
    with other donors may limit D&G’s program success.

•   Turnover, staffing decisions made by USAID/Washington, and unsuccessful
    recruitment efforts can leave key positions vacant for extended periods and
    undermine effective organizational management that is essential to achieving
    results. The D&G Director’s position was converted from USDH to USPSC
    in 2003, but the selected candidate is still awaiting his security clearance. The
    Senior Rule of Law Advisor position – vacant since September 2002 – has
    also remained unfilled because the selected candidate has not yet received the
    required security clearance.

•   The Mission recently created a D&G Deputy Director position to provide
    greater management continuity for the organization.

•   D&G personnel are actively engaged with the implementing partners to
    improve D&G programs and results. Personnel have up-to-date job
    descriptions, receive required performance appraisals, and receive regular
    training opportunities. These human capital management factors reduce
    organizational risk.

•   D&G personnel are aware of the potential for fraud, corruption and
    mismanagement, and have taken steps to prevent it. For example, a CTO
    recently identified and reported a potential vulnerability to Mission


                                                                                        6
    management and the OIG. The identification and mitigation of such risk helps
    ensure that organizations meet their objectives

•   D&G has utilized management tools such as portfolio reviews, sector
    assessments, and contractor evaluations. Such management reviews at the
    functional level are important control mechanisms that help limit risk.

•   The Mission’s FMFIA Report for FY 2003 did not disclose any material
    weaknesses related to D&G operations.


 Executive Office: This office manages administrative
 functions such as personnel management, general                   Low
 services, motor pool, and property management.
 Risk Assessment Factors
• The Mission’s Operating Expense budget for FY 2003 was $4.4 million. This
    provides for the basic support of the Mission. The EXO also spends a small
    amount of program funds each year.

•   Key managers within the Executive Office – including the Executive Officer
    (EXO), the Deputy EXO, and Computer System Manager – have extensive
    training and experience with USAID policies and procedures. Organizations
    can reduce risk by having the right people on board with the appropriate skills.

•   The EXO is responsible for administration and internal management activities
    of the Mission and must work with numerous laws, regulations and standard
    operating procedures, including, procurement and local labor laws, State
    Department regulations for travel and education, funding regulations, and
    computer security. Such multiple requirements demand significant staff
    attention.

•   The EXO maintains appropriate internal controls related to personnel
    management. Personnel have up-to-date job descriptions and receive regular
    performance appraisals. Employees are provided with training to improve
    performance. These human capital management factors reduce organizational
    risk.

•   Employee files are generally well organized in accordance with applicable
    guidance. In addition, the risk of unauthorized use or loss is controlled by
    restricting access to employee records.

•   The EXO maintains appropriate internal controls related to physical inventory
    and EXO property management personnel have received a commendation for
    their service to other U.S. agencies under an International Cooperative
    Administrative Support Services agreement. Residential furniture, office
    furniture and equipment items are bar-coded and assigned a control number.

•   The EXO maintained appropriate use of internal controls related to computer
    access controls and security. A recent scan of the computer system by
    USAID/Washington showed that vulnerability is low.


                                                                                       7
•   A computer disaster recovery plan has been developed and is periodically
    tested for general support and major applications.

•   The EXO maintains documentation regarding daily motor pool operations.
    Vehicle mileage, fuel consumption and maintenance records are regularly
    updated. The Mission maintains daily vehicle operation reports which are
    signed by the motor pool supervisor and authorized passengers.

•   The USAID/Kosovo Mission Order 536, Motor Vehicle Use was not
    consistent with the Foreign Affairs Manual (FAM) 228.2-4 requirement to
    collect charges for most non-business uses of official vehicles. In October
    2003, the EXO drafted a revised Mission Order requiring such charges, but at
    that time of our review, the new Order had not yet been approved by the U.S.
    Office, Pristina. If mission orders are not consistent with regulations, the
    general control environment may become vulnerable to fraud, waste and
    abuse.

•   The Executive Office has not completed an evaluation of the Mission’s
    vehicle and driver requirements that is consistent with guidance in Automated
    Directives System (ADS) 536.3.4 or 6 FAM 228 1-2. In the past, the Mission
    had purchased some vehicles based on the availability of funds, not based on
    documented Mission needs. Although the Mission spent $51,000 of year-end
    funds to purchase two pick-up trucks in September 2003, the Executive Office
    had not justified the purchase through an analysis of Mission needs.

•   The Mission’s FY 2003 FMFIA report disclosed no material weaknesses
    related to EXO operations.




Function Description                                           Risk Exposure
 Controller’s Office: This office is responsible for the
 financial management of the Mission’s programs and                Low
 operations.
 Risk Assessment Factors
• This area received $617,000 or 14 percent of the Mission’s FY 2003 operating
     expense funding.

•   The instability of the Government of Kosovo and the continued incidents of
    political violence and disputes may increase the Mission’s financial liabilities,
    and in return may limit budgeted resources.

•   The staff was knowledgeable and well informed about their respective
    responsibilities. The staffs’ level of competence and institutional knowledge
    should provide the Mission with the needed assurance that work requirements
    will be met with minimum supervision.

•   Unannounced cash counts were conducted and documented as required by the
    Foreign Affairs Handbook Volume 4 Handbook 3.


                                                                                        8
                •    Various vouchers and schedules from prior fiscal years had not been retired as
                     required by ADS 502. During our assessment the office began work to retire its
                     records as appropriate.

                •    The Mission’s FMFIA report for FY 2003 did not disclose any material
                     weaknesses related to the Controller’s operations.




 Conclusion     We examined the risk associated with the various aspects of the USAID/Kosovo
                Mission. The table below summarizes the conclusions.


                                                                            Risk Exposure
                    USAID/Kosovo Functions
                                                                   High       Moderate Low
                    Economic Growth Office                                        9
                    Democracy and Governance Office                               9
                    Executive Office                                                      9
                    Controller’s Office                                                   9

                We believe that much of the risk associated with USAID/Kosovo’s program
                objectives not being met are due to the uncertainty of political and economic reforms
                as well as the continued incidents of political violence and disputes which greatly limit
                program success. In some instances, additional management action and improved
                procedures are needed to ensure adequate program controls.

                Based on our observations, interviews and limited review of documentation, we are
                offering the following suggestions for Mission management’s consideration. These
                suggestions are not formal audit recommendations and do not necessarily represent
                deficiencies, but involve possible improvements or enhancements to activities which
                could already be in progress. Specifically the Mission should:

                     •   maintain standards for records management and retirement,

                     •   cite the difficulty of recruiting and retaining staff as an internal control
                         weakness for its FMFIA report,

                     •   complete an annual needs assessment of drivers and vehicles that is consistent
                         with FAM and ADS guidance, and

                     •   assure that site visit reports are documented in writing.



Evaluation of   USAID/Kosovo Mission officials agreed with the conclusions we reached during the
Management      risk assessment and concurred with our suggestions. As noted by the Mission, many
Comments        of the suggestions included in the risk assessment have already been implemented,
                including the appropriate retirement of records and the adoption of a motor vehicle
                policy that is consistent with the FAM.


                                                                                                       9
(This Page Intentionally Left Blank)




                                       10
                                                                                        Appendix I

Scope and
              Scope
Methodology
              The Regional Inspector General/Budapest (RIG/Budapest) conducted this risk
              assessment to gain an understanding of the programs and activities of
              USAID/Kosovo. This was not an audit and does not contain any formal
              recommendations. The risk assessment was conducted at USAID/Kosovo in Pristina,
              Kosovo from April 26 through May 14, 2004. Due to time constraints, we did not
              assess the program office. The purpose of this assessment was to identify the more
              significant areas of vulnerability within USAID/Kosovo’s administrative and program
              operations that would assist RIG/Budapest in planning future audits. The risk
              assessment focused primarily on FY 2003 data and, as necessary, data from previous
              years.

              Methodology

              To perform this risk assessment, we interviewed USAID/Kosovo personnel and
              examined documentation to obtain an understanding of the Mission’s objectives,
              programs and activities. We judged risk exposure by considering the likelihood of:
              significant abuse, illegal acts, and/or misuse of resources, failure to achieve program
              objectives, and noncompliance with laws, regulations or internal policies. We
              assessed overall risk exposure as low, moderate, or high. A higher risk exposure
              simply indicated that the particular function is more vulnerable to not achieving its
              program objectives or to experiencing irregularities.

              Our overall risk assessments did not make definitive determinations of the
              effectiveness of internal controls. As a part of the scope of our review, we (a)
              obtained an understanding of the internal controls related to the programs and
              operations selected, and (b) assessed what was already known about the internal
              controls. Also it should be noted, we did not, (a) assess the adequacy of the internal
              control design, (b) determine if controls had been properly implemented, nor (c)
              determine if transactions were properly documented.

              Our risk assessment of USAID/Kosovo considered the following limitations:

                 •    Higher risk exposure assessments are not definitive indicators that program
                      objectives were not being achieved or that irregularities were occurring. A
                      higher risk exposure simply implies that the particular function is more
                      vulnerable to the occurrence of such events.

                 •    Comparison of risk exposure assessments between organizational units and
                      implementing partners is of limited usefulness due to the fact that the
                      assessments consider both internal and external factors, some being outside
                      the control of management.




                                                                                                  11
   •   Risk exposure assessments in isolation are not an indicator of management’s
       capabilities due to the fact that the assessments consider both internal and
       external factors, some being outside the control of management.

We judgmentally determined a risk level of low, moderate, or high for the Mission’s
various programs and offices. The final assignment of the risk level to an office was
judgmentally determined considering the external factors which could have had an
effect on the programs in some cases. We also assessed how sufficiently we believed
the Mission had met the prescribed regulations, operating guidelines and internal
control procedures in its program, financial, accounting and administrative
management.




                                                                                  12
                                                                                                               Appendix II


Management
Comments


                               United States Agency for International
                                            Development
                                      USAID/Kosovo, Pristina

MEMORANDUM


FOR:            Nancy J. Lawton, RIG/Budapest

FROM:           S. Ken Yamashita, Mission Director, USAID/Kosovo /s/

DATE:           August 2, 2004


SUBJECT:        Response to the Draft Report on the Risk Assessment of USAID/Kosovo (Report No. B-167-04-00X-S)



Thank you for the opportunity to comment on subject report. We worked closely with your office on the risk assessment review,
provided written comments to the discussion draft report and discussed concerns and issues with your office. We appreciate that
our comments were addressed and incorporated into the report.

The Mission has implemented some of the initial report suggestions. Please see the attached schedule for our final proposed
report changes.

USAID/Kosovo recognizes and appreciates the effort and guidance your office provided during the risk assessment review. We
look forward to further implementing the report’s suggestions.




                                                                                                                            13
Attachment - Proposed Report Changes



On page 5 under Economic Growth Office, fifth bullet, please add: …resulted in the “appropriate” termination of… and at the
end of the sentence: … or administrative objectives “showing that oversight procedures functioned effectively.”


On page 8 under Executive Office, fourth bullet, please remove the paragraph covering not collecting for vehicle usage since an
Administrative Notice on Post Policy On The Use Of Official Vehicles was issued on May 25, 2004 and this suggestion has now
been fully implemented.




                                                                                                                            14
